Audit Report




OIG-09-034
Audit of the Exchange Stabilization Fund’s Fiscal Years
2008 and 2007 Financial Statements


March 11, 2009




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                 March 11, 2009


             MEMORANDUM FOR MARK SOBEL
                            ACTING ASSISTANT SECRETARY FOR INTERNATIONAL
                            FINANCIAL MARKETS AND INVESTMENT POLICY

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Audit of the Exchange Stabilization Fund’s Fiscal Years 2008
                                      and 2007 Financial Statements


             I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
             financial statement for fiscal years (FY) 2008 and 2007. Under a contract
             monitored by the Office of Inspector General, KPMG LLP, an independent certified
             public accounting firm, performed an audit of the financial statements of ESF as of
             September 30, 2008, and for the year then ended. The ESF’s financial statements
             for FY 2007 were audited by Clifton Gunderson LLP, another independent certified
             public accounting firm, whose report dated November 9, 2007, expressed an
             unqualified opinion. Both contracts required that the audits be performed in
             accordance with generally accepted government auditing standards and the
             GAO/PCIE Financial Audit Manual.

             The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                      •   Independent Auditors’ Report;
                      •   Independent Auditors’ Report on Internal Control Over Financial
                          Reporting; and
                      •   Independent Auditors’ Report on Compliance and Other Matters.

             In its audit, KPMG LLP found that the financial statements were fairly presented, in
             all material respects, in conformity with U.S. generally accepted accounting
             principles. However, KPMG LLP identified two significant deficiencies related to
             foreign currency investment transactions and the Temporary Money Market
             Insurance Program. The significant deficiency related to foreign currency
             investment transactions is considered a material weakness. KPMG LLP found no
             instances of reportable noncompliance with laws and regulations tested.
Page 2


KPMG LLP also issued a management letter dated February 13, 2009, discussing a
matter involving internal control over financial reporting that was identified during
the audit but was not required to be included in the auditors’ reports. This letter
will be transmitted separately.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated February 13, 2009 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND

       Financial Report
       Fiscal Year 2008
                          DEPARTMENT OF THE TREASURY
                          EXCHANGE STABILIZATION FUND

                                      Table of Contents




                                                                            Page


Policy and Operations Statements                                               2
Independent Auditors’ Report                                                   5
Independent Auditors’ Report on Internal Control Over Financial Reporting      7
Independent Auditors’ Report on Compliance and Other Matters                  13
Financial Statements:
   Statements of Financial Position                                           14
   Statements of Income and Retained Earnings                                 15
   Statements of Cash Flows                                                   16
Notes to Financial Statements                                                 17




                                                1
                         EXCHANGE STABILIZATION FUND
                       POLICY AND OPERATIONS STATEMENTS
                                FISCAL YEAR 2008



The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay $1.8
billion from the ESF to the International Monetary Fund (IMF), for the initial U. S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976 (P.L. 94-
564, effective April 1, 1978, the date of entry into force of the Second Amendment of the IMF
Articles of Agreement) amended the language of Section 10 of the Gold Reserve Act to specify
that the ESF is to be utilized as the Secretary “may deem necessary to and consistent with the
United States obligations in the International Monetary Fund.” In 1977, P.L. 95-147 further
amended Section 10 of the Gold Reserve Act. Following codification, Section 10 now provides
as follows:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564,
which was approved October 18, 1976 and became effective April 1, 1978), Special Drawing
Rights (SDRs) allocated by the IMF to the United States or otherwise acquired by the United
States are resources of the ESF.

Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR


                                               2
                          EXCHANGE STABILIZATION FUND
                        POLICY AND OPERATIONS STATEMENTS
                                 FISCAL YEAR 2008



certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U. S.) holdings of
SDRs; such certificates are a liability of the ESF.

I.    Foreign Currency Operations

      During fiscal year 2008, the ESF engaged in no market transactions.

      a. Euros and Japanese Yen

         The ESF had a net valuation gain of $532.4 million on its holdings of euros and yen.
         The ESF had investment income of $647.1 million equivalent on its euro and yen
         assets.

      b. Mexico

         In December 2007, the Treasury and Federal Reserve Bank of New York renewed the
         Exchange Stabilization Agreement with Mexico for another year to December 2008.
         On December 10, 2008, Treasury renewed its participation in the agreement until
         December 2010.

II.   SDR Operations

      As of September 30, 2008, U. S. holdings (assets) of SDRs totaled SDR 6.0 billion ($9.4
      billion equivalent), a net increase of SDR 0.1 billion during Fiscal Year 2008. However, as
      the SDR appreciated against the dollar in this period, there was a net valuation gain of $0.3
      million on U. S. holdings of SDRs. The ESF reimbursed the Treasury’s General Fund
      $58.7 million for SDRs received from the IMF as remuneration on the U. S. reserve
      position in the IMF. The ESF earned interest of $301.8 million equivalent on its SDR
      holdings.

      As of September 30, 2008, cumulative allocations to (liabilities of) the United States
      totaled SDR 4.9 billion ($7.6 billion equivalent). These liabilities would come due only in
      the event of liquidation of, or U. S. withdrawal from, the SDR Department of the IMF, or
      cancellation of SDRs.

      There were $2.2 billion of SDR certificates that had been issued to the Federal Reserve
      System prior to Fiscal Year 2008 and remained outstanding at the end of the fiscal year.

III. Income and Expense

      Interest revenue totaled $1,408 million, consisting of $459.3 million in interest on dollar
      holdings invested in U. S. Government securities, $301.8 million equivalent in interest on
      SDR holdings, and $647.1 million equivalent in interest on foreign currency investments.


                                                 3
                        EXCHANGE STABILIZATION FUND
                      POLICY AND OPERATIONS STATEMENTS
                               FISCAL YEAR 2008



     Interest expense totaled $246.0 million, which included $245.9 million in interest charges
     on SDR Allocations and $0.1 million paid by the ESF to the Treasury General Fund on the
     dollar counterpart of SDRs received as remuneration on the U. S. reserve positioning the
     IMF.

IV. Temporary Guarantee Program for Money Market Mutual Funds

     On September 19, 2008, the Secretary of the Treasury, with the approval of the President,
     established a temporary guarantee program for the U.S. money market mutual funds
     industry. Under the program the assets of the ESF will be available to guarantee the net
     asset value for shares of participating eligible money market funds. All publicly offered
     money market funds regulated under Rule 2a-7 of the Investment Company Act of 1940
     and registered with the Securities and Exchange Commission that, as of September 19,
     2008, had a policy of maintaining a stable net asset value of share price are eligible to
     participate, provided they pay a program participation fee beginning on September 29 and
     are accepted into the program by Treasury. The program has an initial term of three
     months, at which time the Secretary has the option to renew it up to the close of business
     on September 18, 2009, at which time participating funds would have to renew their
     participation at the extension point to maintain coverage. On November 24, 2008, the
     program was extended until April 30, 2009, at the discretion of the Secretary.

     As of September 30, 2008, the ESF collected $39.7 million in insurance premiums. As of
     October 10, 2008, the ESF collected an additional $298.1 million in insurance premiums.
     These premiums represent the payments for the first three initial months of coverage which
     began September 19, 2008. Of the total $337.8 million collected, $45.0 million was
     recognized as earned revenue, while $292.8 remained as unearned revenue.

V. On November 19, 2008, Treasury entered into a transaction with the Reserve Fund's U.S.
   Government Fund (USGF), under which Treasury (1) executed the Guarantee Agreement
   which accepted the USGF into the Treasury Guarantee Program (see Note 7) and (2) signed
   a Letter Agreement with the USGF. Under the terms of the Letter Agreement, Treasury was
   obligated to purchase in early January the USGF’s remaining securities issued by four U.S.
   government sponsored enterprises. On January 15, 2009, the ESF purchased approximately
   $3.6 billion of these securities; the purchase price representing the amortized cost of the
   remaining securities, plus accrued but unpaid interest. Upon consummation of the purchase,
   these GSE securities were classified as held to maturity and will be reported as investment
   securities as of the date of purchase.




                                              4
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:
We have audited the accompanying statement of financial position of the U.S. Department of the
Treasury’s (Department) Exchange Stabilization Fund (ESF) as of September 30, 2008, and the related
statement of income and retained earnings, and statement of cash flows (hereinafter referred to as financial
statements) for the year then ended. These financial statements are the responsibility of the ESF’s
management. Our responsibility is to express an opinion on these financial statements based on our audit.
The accompanying fiscal year 2007 financial statements were audited by other auditors, whose report
thereon dated November 9, 2007, expressed an unqualified opinion on these financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the ESF’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the ESF as of September 30, 2008, and the results of its operations and its cash flows
for the year then ended in conformity with U.S. generally accepted accounting principles.

In September 2008, the Department established a Temporary Guarantee Program for Money Market Funds
(Treasury Guarantee Program). Use of the ESF’s assets to support the Treasury Guarantee Program was
approved by the President and the Secretary of the Treasury on September 19, 2008. See Notes 7, 8, and 9.

Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Policy and Operations Statements section, on pages 2 through 4 is presented
for purposes of additional analysis and is not required as part of the financial statements. This information
has not been subjected to auditing procedures and, accordingly, we express no opinion on it.




                                                                          5
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated February 13,
2009, on our consideration of the ESF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audit.




February 13, 2009




                                                     6
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury:
We have audited the accompanying statement of financial position of the U.S. Department of the
Treasury’s (Department) Exchange Stabilization Fund (ESF) as of September 30, 2008, and the related
statement of income and retained earnings, and statement of cash flows (hereinafter referred to as financial
statements) for the year then ended, and have issued our report thereon dated February 13, 2009.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of the ESF is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2008 audit, we considered the ESF’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of ESF’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements. To achieve this purpose, we did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of
our audit was not to express an opinion on the effectiveness of the ESF’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the ESF’s internal control
over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the ESF’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the ESF’s financial statements that is more than inconsequential
will not be prevented or detected by the ESF’s internal control. A material weakness is a significant
deficiency, or combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the financial statements will not be prevented or detected by the ESF’s internal
control.

In our fiscal year 2008 audit, we consider the deficiencies, described below, to be significant deficiencies
in internal control over financial reporting. The significant deficiency related to foreign currency
investment transactions noted below is considered to be a material weakness for the ESF.


                                                                         7
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
MATERIAL WEAKNESS

Foreign Currency Investment Transactions

Improvements are needed in internal controls over accounting and reporting related to ESF’s foreign
currency investments. ESF’s foreign currency operations are conducted on its behalf by a designated fiscal
agent. Foreign currency functions conducted by the fiscal agent include management of ESF’s foreign
currency portfolio in accordance with Treasury stipulated guidelines, execution of purchases/sales of
foreign currency in the market, purchases and sales of foreign currency in non-market transactions, and
other foreign currency transactions as directed by the Secretary of the Treasury. In addition, the fiscal agent
is responsible for the monthly accounting and reporting to the ESF of foreign currency activities. The fiscal
agent also provides the data that supports various ESF financial statement disclosures such as that for fair
values.

The ESF relies entirely on the financial information reported by the fiscal agent and incorporates the
financial data reported monthly into ESF’s general ledger and financial statements. Although ESF’s
financial data is subject to detailed review and validation by the fiscal agent, ESF has no corresponding
internal monitoring procedures and controls in place to substantiate the accuracy of the
transactions/balances reported by the fiscal agent. Several control deficiencies were noted, as described
below, that indicated a weak control environment, resulting in financial management and reporting
weaknesses.

•   Foreign currency transaction details are not recorded at the transaction level in ESF’s general ledger.
    Only the net monthly changes in foreign currency account balances are recorded in ESF’s general
    ledger, causing ESF to rely entirely on the fiscal agent for any details needed for financial reporting.

•   There are no procedures to monitor the completeness of the foreign currency balances reported by the
    fiscal agent. Comprehensive internal processes, procedures, and controls over foreign exchange
    transactions are essential to ensure that the foreign currency transactions and balances reported by the
    fiscal agent are complete and accurate, and reported appropriately in the ESF’s financial statements.

•   There are no policies, procedures, and related internal controls to test whether foreign currency
    transactions reported by the fiscal agent are valid and supported by appropriate source documentation.
    ESF relies on the fiscal agent to provide the needed functional and accounting support, and has not
    designed and implemented the procedures and controls necessary to independently verify the reliability
    of financial reporting by the fiscal agent. Implementation of appropriate procedures and controls over
    investment transactions and balances reported by the fiscal agent is needed to minimize the risk of
    fraud, undetected errors, and mismanagement of funds, which could ultimately lead to financial
    statement misstatements.

•   ESF has no policies, procedures, and internal controls to compile, support (to include valid support for
    the preparation of all disclosures), review, and report financial statement amounts and related
    disclosures related to foreign currency investments.

•   Although there is reliance on the fiscal agent for the monthly accounting and reporting of foreign
    currency activities, ESF has no procedures to conduct periodic (at least annually) site visits to the fiscal
    agent to review and test the fiscal agent’s procedures and control activities.

•   ESF does not have sufficient staff to expeditiously address routine and non-routine accounting issues.



                                                       8
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish internal
controls according to standards prescribed by the Comptroller General and specified in the GAO Standards
for Internal Control in the Federal Government (GAO Standards). These standards define internal control
as an integral component of an organization’s management that provides reasonable assurance that the
following objectives are being achieved: effectiveness and efficiency of operations, reliability of financial
reporting, and compliance with applicable laws and regulations. GAO Standards state that internal controls
should generally be designed to assure that on-going monitoring occurs in the course of normal operations.
Management is responsible for developing control activities, which are the policies, procedures,
techniques, and mechanisms that enforce management’s directives and help ensure actions address risks.
The activities include reviews by management at the functional or activity level, proper execution of
transactions and events, accurate and timely recording of transactions and events, and appropriate
documentation of transactions and internal control.

Recommendations

We recommend that ESF’s Chief Executive Officer and Chief Financial Officer:

1. Conduct an evaluation of the current financial reporting processes over foreign currency transactions,
   including a review of ESF’s general ledger system, with the goal of establishing a general ledger that
   captures investment activity at the transaction level, i.e. all financial transactions are recorded in the
   general ledger at the detailed transaction level as they occur;
2. Establish a formal independent recalculation and review process over all foreign currency
   reconciliation activities to be performed by ESF staff in order to ensure that all foreign currency
   transactions and balances reported by the fiscal agent are complete and accurate. This involves
   independently computing ending general ledger balances and comparing to transactions and balances
   reported by the fiscal agent;
3. Establish policies, procedures, and related internal controls to ensure that the foreign currency
   transactions reported by the fiscal agent are supported by appropriate source documentation. Selected
   foreign currency transactions should be agreed to supporting documentation, tested for accuracy,
   evidence of fiscal agent’s management review and approval, and appropriateness of accounting and
   reporting;
4. Develop and implement policies, procedures, and internal controls to compile, support (to include valid
   support for the preparation of all disclosures), review, and report foreign currency financial statement
   amounts and related disclosures;
5. Conduct periodic (at least annually) site visits to the fiscal agent to review and test their procedures and
   control activities. These reviews should be thorough, comprehensive, and include robust testing. Such
   activities should be documented and any issues followed up and resolved timely; and

6. Perform a human capital needs assessment, with particular focus on ESF staff management skills
   needed to perform the daily financial operations of ESF. Once the human capital needs are assessed,
   hire staff, or consider transferring suitable staff from other offices within Treasury to meet these needs.

SIGNIFICANT DEFICIENCY

Temporary Money Market Insurance Program

Improvements are needed in financial management and reporting practices due to expanded accounting and
reporting requirements, and responsibilities resulting from the establishment of the Temporary Guarantee
Program for Money Market Funds (Treasury Guarantee Program). ESF overcame significant time and

                                                      9
personnel resource constraints to execute, manage, and report the activities of the Treasury Guarantee
Program all of which occurred during the last month of the fiscal year. These transactions were processed
in a shortened time-frame leading to various control deficiencies. ESF did not properly formulate the
accounting policies and procedures needed to account and report these non-routine transactions. During our
review of these transactions, we noted several discrepancies that were only corrected after they were
identified during audit test work. Also, supervisory and other monitoring procedures were not timely and
consistently performed over financial data and other information submitted for audit.

The GAO Standards state that internal controls should generally be designed to assure that on-going
monitoring occurs in the course of normal operations. Management is responsible for developing control
activities, which are the policies, procedures, techniques, and mechanisms that enforce management’s
directives and help ensure actions address risks. The control activities include reviews by management at
the functional or activity level, proper execution of transactions and events, accurate and timely recording
of transactions and events, and appropriate documentation of transactions and internal control.

Recommendation

We recommend that ESF’s Chief Executive Officer, and Chief Financial Officer develop and establish the
appropriate policies, procedures, and controls needed to adequately support the accounting and reporting
requirements for the transactions resulting from the Treasury Guarantee Program.

                                                *********

ESF management’s response to the findings identified in our audit is presented in Exhibit I. We did not
audit management’s response and, accordingly, we express no opinion on it.

We noted one additional matter that we have reported to management of the ESF in a separate letter dated
February 13, 2009.

This report is intended solely for the information and use of the ESF’s management, the Department’s
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and
is not intended to be and should not be used by anyone other than these specified parties.




February 13, 2009




                                                    10
                                                          Exhibit 1 – Management’s Responses


MATERIAL WEAKNESS

Foreign Currency Investment Transactions

While ESF Management largely concurs with the recommendations, we disagree with the
underlying finding. The internal controls the auditors found to be a “material weakness” are the
same controls ESF’s prior external auditor found sufficient since Fiscal Year 2004. There was no
indication, or any determination, from our previous auditors that internal controls over financial
accounting were ineffective. In addition, Treasury’s Office of the Inspector General (OIG)
performed the audit prior to Fiscal Year 2004 and never raised any questions about internal
controls over financial accounting, either then or, in the OIG oversight role, in subsequent years.

ESF’s Management relied on these prior audits and believed proper internal controls were in
place and laws and regulations were followed. We believe, therefore, that it would be more
appropriate for KPMG to issue management letter recommendations instead of this late
determination that there is a material weakness.

ESF will follow the highest standards of internal control and will work to establish the controls
over financial reporting recommended in this report. However, ESF Management does not agree
with the finding of a material weakness. Based on prior audits and the oversight of the Treasury
OIG, we believed internal controls were sufficient and in accordance with FMFIA. ESF
Management requests the finding be changed to a management letter recommendation.

Management’s Response to Recommendation 1:
We agree in principle with the recommendation but, at the current time, ESF is unable to record
transactions at the detailed transaction level. ESF engages in a very large number of transactions
and recording each transaction would be a manual process and involve a significant increase in
staffing. The effort would also duplicate the work performed by the Federal Reserve Bank of
New York (FRBNY). ESF will make the following changes in its procedures to address this
recommendation. Entries will be summarized on a weekly basis, a more thorough review will be
performed by management, and transactions will be sampled to ensure their accuracy. The
Office of Financial Management (OFM) staff will also work with FRBNY to develop a
systematic, automated approach for capturing detailed financial transactions in the general ledger.

Management’s Response to Recommendation 2:
We concur with the recommendation that a formal independent recalculation and review process
of all FCDA’s be accomplished by our staff to ensure that transactions and balances as reported
by the fiscal agent are complete and accurate. Immediately after the auditors communicated this
recommendation, OFM immediately put processes in place to request reconciliations from the
international banks on a monthly basis. In turn, sampling of weekly transactions will be
accomplished to verify various securities held, exchange rate calculations, and reconciling
balances.

Management’s Response to Recommendation 3:
We concur with the recommendation and, as Recommendations 1 and 2 are implemented, OFM
will develop new policies, procedures and related internal controls to satisfy the requirement for


                                                11
FMFIA. Our ultimate goal is to ensure the highest standards of internal control over financial
reporting are established and followed, according to the laws and regulations of FMFIA.

Management’s Response to Recommendation 4:
We concur with the recommendation and will develop and implement policies, procedures and
internal controls for reporting ESF activity. We will document these as we update current
procedures to address Recommendation 3.

Management’s Response to Recommendation 5:
We concur with the recommendation and have been in contact with the fiscal agent to make
arrangements for periodic visits. Currently, we plan to visit FRBNY annually prior to June 30
reporting. All visits will be documented and we will resolve issues in a timely manner.

Management’s Response to Recommendation 6:
The Office of Financial Management regularly assesses staff management skills and works to
ensure managerial skills and knowledge are sufficient to perform the daily activities of the ESF.
We are confident the ESF staff has the necessary knowledge and management skills to strengthen
the financial accounting and reporting infrastructure and effectively manage the process. We will
continually reassess the ESF’s human capital needs.

We agree the addition of skilled staff would bolster ESF reporting. The ESF statute, however,
prohibits the payment of administrative costs by ESF and there is no funding mechanism for
additional staff outside of the Departmental Offices Salaries and Expenses (S&E) appropriation.
Competing priorities in the S&E appropriation (such as funding the effort to combat financial
terrorism) make the availability of additional S&E resources for ESF unlikely. We believe,
however, we can address your recommendations, without the addition of staff, with improved
internal controls and business processes for financial reporting.


SIGNIFICANT DEFICIENCY

Temporary Money Market Insurance Program

Pursuant to the Secretary’s authorization, the Office of the Assistant Secretary for Domestic
Finance has been designated as the managers for this new program. ESF Management will work
with this office to establish new policies and procedures to require documentation that supports
all the new and/or unique accounting and reporting requirements for this Program.




                                               12
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury:
We have audited the accompanying statement of financial position of the U.S. Department of the
Treasury’s (Department) Exchange Stabilization Fund (ESF) as of September 30, 2008, and the related
statement of income and retained earnings, and statement of cash flows (hereinafter referred to as financial
statements) for the year then ended, and have issued our report thereon dated February 13, 2009.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of the ESF is responsible for complying with laws, regulations, and contracts applicable
to the ESF. As part of obtaining reasonable assurance about whether the ESF’s financial statements are free
of material misstatement, we performed tests of the ESF’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts, applicable to the ESF. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the ESF’s management, the Department’s
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and
is not intended to be and should not be used by anyone other than these specified parties.




February 13, 2009




                                                                        13
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF FINANCIAL POSITION
(In Thousands)

As of September 30                                                   2008             2007

Assets

Cash and Cash Equivalents (Note 2):
    Fund Balance with Treasury                                   $       33,150   $            -
    U.S. Government Securities                                       16,846,844       16,436,114
    Foreign Currency Denominated Assets                               9,257,093        7,599,522
Total Cash and Cash Equivalents                                      26,137,087       24,035,636

Other Foreign Currency Denominated
   Assets (Note 3)                                                    3,474,221        4,445,254
Special Drawing Right Holdings (Note 4)                               9,417,541        9,300,550
Investment Securities (Note 5)                                       10,417,505        9,918,457
Interest Receivable (Notes 2, 3, and 5)                                 152,092          161,790
Interest Receivable on Special Drawing Right Holdings                    45,912           62,563
Insurance Premiums Receivable (Note 7)                                  298,147                -
Total Assets                                                     $   49,942,505   $   47,924,250



Liabilities and Equity

Liabilities:
    Certificates Issued to Federal Reserve
        Banks (Note 6)                                           $    2,200,000   $    2,200,000
    Special Drawing Right Allocations (Note 4)                        7,629,646        7,626,853
    Interest Payable on Special Drawing Right Allocations                37,196           51,305
    Deferred Insurance Premium Revenue (Note 7)                         292,800                -
    Other                                                                   232              149
Total Liabilities                                                    10,159,874        9,878,307

Commitments and Contingencies (Notes 7, 8 and 9)

Equity:
    Appropriated Capital (Note 1A)                                      200,000          200,000
    Retained Earnings                                                39,582,631       37,845,943
Total Equity                                                         39,782,631       38,045,943

Total Liabilities and Equity                                     $   49,942,505   $   47,924,250




See accompanying notes to financial statements.




                                                            14
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF INCOME AND RETAINED EARNINGS
(In Thousands)

Years Ended September 30                                                      2008               2007

Interest Income
    Interest on U.S. Government Securities                                $     459,348      $     834,219
    Interest on Foreign Currency -
        Denominated Assets                                                       424,096            329,551
    Interest on Special Drawing Right Holdings (Note 4)                          301,826            370,916
    Interest on Investment Securities                                            223,040            171,600
Total Interest Income                                                          1,408,310          1,706,286

Interest Expense
    Interest on Special Drawing Right Allocations (Note 4)                     (245,884)          (306,583)
    Interest on Special Drawing Right -
        Remuneration due to the U.S. Treasury                                      (100)              (518)
Total Interest Expense                                                         (245,984)          (307,101)

Net Interest Income                                                           1,162,326          1,399,185

Net Gains (Losses)
    Gain (Loss) on Valuation of:
       Special Drawing Rights, net                                               (2,418)            83,620
       Investment Securities and -
          Foreign Currency Denominated Assets, net (Notes 3 and 5)              532,397          1,678,690
Total Net Gains                                                                 529,979          1,762,310

Other Income
   Insurance Premiums (Note 7)                                                   45,045                    -

Total Income                                                                   1,737,350          3,161,495

Other Expenses
   International Monetary Fund Annual Assessment                                     (662)              (342)

Net Income                                                                     1,736,688          3,161,153

Retained Earnings, Beginning of Year                                          37,845,943         34,684,790

Retained Earnings, End of Year                                            $   39,582,631     $   37,845,943




See accompanying notes to financial statements.




                                                                     15
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF CASH FLOWS
(In Thousands)

Years Ended September 30                                                        2008              2007

Cash Flows from Operating Activities:
    Interest Received on:
       U.S. Government Securities                                           $      462,991    $      832,771
       Foreign Currency Denominated Assets                                         312,616           317,243
       Investment Securities                                                       349,017           146,156
    Insurance Premiums                                                              39,693               -
    Other                                                                           (9,117)            9,096
Net Cash Provided by Operating Activities                                        1,155,200         1,305,266

Cash Flows from Investing Activities:
    Net Purchases/Sales of Foreign Currency Denominated Assets                    968,011           (384,575)
    Net Increase in Investment Securities                                         (68,639)           (25,559)
    Reimbursement for Remuneration Received (Note 4)                              (58,704)          (107,701)
    Other                                                                             574                -
Net Cash Provided by (Used in) Investing Activities                               841,242           (517,835)

    Effect of Exchange Rate on Cash                                               105,009           727,448

Net Increase in Cash and Cash Equivalents                                        2,101,451         1,514,879

Cash and Cash Equivalents,
  Beginning of Year                                                             24,035,636        22,520,757

Cash and Cash Equivalents,
  End of Year                                                               $   26,137,087    $   24,035,636

Reconciliation of Net Income to Net Cash Provided by
   Operating Activities
    Net Income                                                              $    1,736,688    $    3,161,153
    Adjustments to Reconcile Net Income to Net Cash Provided by
       Operating Activities:
          Net Exchange Rate Gain on FCDAs and Investment Securities               (532,397)       (1,678,690)
          Increase in Special Drawing Right Holdings Due to Valuation                 (282)         (476,567)
          Net Increase in Special Drawing Rights Holdings                          (58,577)          (61,772)
          Decrease (Increase) in Accrued Interest Receivable                        26,348           (36,717)
          Increase in Insurance Premium Receivable                                (298,147)              -
          Increase in Special Drawing Right Allocations Due to Valuation             2,793           393,334
          (Decrease) Increase in Accrued Expenses and Other                        (14,026)            4,525
          Increase in Deferred Insurance Premium Revenue                           292,800               -
Total Adjustments                                                                 (581,488)       (1,855,887)
Net Cash Provided by Operating Activities                                   $    1,155,200    $    1,305,266




See accompanying notes to financial statements.




                                                                       16
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABLIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2008 and 2007



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.     Entity

The Gold Reserve Act of 1934 (the Act) established a fund to be operated by the Secretary of the Treasury,
with the approval of the President. Section 10(a) of the Act originally provided that “For the purpose of
stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the approval of the President,
directly or through such agencies as he may designate, is authorized, for the account of the fund established
in this section, to deal in gold and foreign exchange and such other instruments of credit and securities as he
may deem necessary to carry out the purpose of this section.” To this end, the Congress, in 1934,
appropriated to the Exchange Stabilization Fund (ESF) the sum of $2 billion out of the increment resulting
from the reduction in the “weight of the gold dollar.” Subsequent amendments to the Gold Reserve Act
approved the operation of the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts,
approved July 31, 1945, continued its operations permanently. The Bretton Woods Agreements Act also
directed the Secretary of the Treasury to pay $1.8 billion from the ESF to the International Monetary Fund
(IMF), for the initial U.S. quota subscription in the IMF, thereby reducing the ESF’s appropriated capital to
$200 million. Section 10(b) of the Act, as amended, 31 U.S.C. 5302(b) now provides in relevant part:
"Consistent with the obligations of the Government in the International Monetary Fund on orderly exchange
arrangements and a stable system of exchange rates, the Secretary or an agency designated by the Secretary,
with the approval of the President, may deal in gold, foreign exchange, and other instruments of credit and
securities the Secretary considers necessary."

The Federal Reserve Bank of New York (FRBNY) acts as the fiscal agent for the ESF, as permitted by
the Federal Reserve Act. As the fiscal agent, the FRBNY plays a significant role in the processing of
foreign currency transactions that the Secretary of the Treasury authorizes. The manager of the ESF
foreign currency portfolio at the FRBNY consults regularly with the Federal Open Market Committee and
the U.S. Department of the Treasury (Department/Treasury) about the disposition of investments and the
status of the portfolio. The level and currency composition of the ESF foreign currency portfolio are the
products of policy determinations. The ESF management is responsible for the record keeping and
investment decisions for foreign currency transactions managed by the FRBNY.

As provided in section 10(a)(1) of the Act, 31 USC 5302(a)(1), the ESF is “not available to pay
administrative expenses.” Treasury’s Office of International Affairs has responsibility for managing ESF
operations, and Treasury’s Office of Financial Management provides the recordkeeping and financial
reporting services for the ESF. These Treasury offices bear all administrative expenses of the ESF.
Accordingly, there are no administrative expenses reported in the financial statements.

B.     Basis of Accounting and Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted
accounting principles, based on accounting standards issued by the Financial Accounting Standards Board
(FASB), the private-sector standards-setting body. The Federal Accounting Standards Advisory Board
(FASAB) was designated by the American Institute of Certified Public Accountants (AICPA) as the
standards-setting body for financial statements of federal government entities, with respect to the
establishment of generally accepted accounting principles. FASAB has indicated, however, that financial
statements prepared based upon accounting standards published by the FASB may also be regarded as in
accordance with generally accepted accounting principles for those federal entities, such as the ESF, that

                                                     17                                            (Continued)
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABLIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2008 and 2007



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (CONTINUED)

have issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, the ESF financial statements are presented in accordance with
accounting standards published by the FASB.

C.     Use of Estimates

In accordance with generally accepted accounting principles, the preparation of financial statements
requires management to make estimates and assumptions that affect the reported amounts of assets,
liabilities, and disclosures of contingent assets and liabilities at the date of the financial statements and the
reported amounts of revenues and expenses during the reporting period. Significant estimates used in the
preparation of the financial statements and footnotes relate to investments, and the contingent liability.
Actual results could differ from those estimates.

D.     Fair Values of Financial Instruments

Statement of Financial Accounting Standards (SFAS) No. 107, Disclosure about Fair Value of Financial
Instruments, requires all entities to disclose the fair value of financial instruments, where feasible, in an
effort to provide financial statement users with information in making rational investment and credit
decisions.

In September 2006, the FASB issued SFAS No. 157, Fair Value Measurements, which will be effective
for an entity’s financial statements issued for fiscal years beginning after November 15, 2007. SFAS No.
157 provides enhanced guidance on the definition of fair value, the methods to measure fair value and the
expanded disclosures about fair value measurements. SFAS No. 157 does not require any new fair value
measures. The ESF is currently evaluating the implications of SFAS No. 157.

To estimate the fair value of each class of financial instrument, the ESF applied the following methods
using the indicated assumptions:

        Cash and Cash Equivalents
        Cash and Cash Equivalents consist of U.S. government securities and Foreign Currency
        Denominated Assets (FCDAs), and are reported in the statements of financial position at amounts
        that approximate their fair values.

        Special Drawing Right (SDR) Holdings and SDR Allocations
        Using current exchange rates, these amounts have been revalued in the statements of financial
        position to amounts that approximate fair value.

        Investment Securities and Other FCDAs
        The fair value of investment securities and other FCDAs are based upon quoted market and current
        exchange rates.




                                                      18                                            (Continued)
                                   DEPARTMENT OF THE TREASURY
                                   EXCHANGE STABLIZATION FUND
                                  NOTES TO FINANCIAL STATEMENTS
                                      September 30, 2008 and 2007



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (CONTINUED)

E.      Certificates Issued to Federal Reserve Banks

Certificates issued to Federal Reserve Banks (FRB) are reflected on the statements of financial position at
their face value. It is not practicable to estimate the fair value of these certificates issued to FRBs since these
certificates contain no specific terms of repayment and have no market.

F.      Foreign Currency Denominated Assets

Foreign Currency Denominated Assets (FCDA) include interest-bearing foreign deposit accounts and
investments in foreign government securities. In accordance with SFAS No. 52, Foreign Currency
Translation, FCDAs are revalued to reflect current exchange rates in effect as of the reporting date. The
gains or losses resulting from changes in exchange rates are recognized separately in the statements of
income and retained earnings.

G.      U.S. Government Securities

The ESF invests dollars in excess of its immediate needs in overnight, nonmarketable U.S. government
securities issued by the Treasury. The interest rate paid on the investments is the overnight repurchase
agreement rate as established by the Treasury’s Bureau of Public Debt.

H.      Reclassifications

Certain reclassifications have been made to prior year amounts reported in the statements of cash flows to
conform to the current year presentation.

I.      Tax-Exempt Status

As a component of the Treasury, which is a federal agency, the ESF is not subject to federal, state, or
local income taxes, and accordingly, no provision for income taxes is recorded.

NOTE 2 – CASH AND CASH EQUIVALENTS

Cash equivalents are short-term, highly liquid investments that are both readily convertible to known
amounts of cash, and so near their maturity that they present insignificant risk of change in value due to
changes in interest rates. Generally, only investments with original maturities of three months or less
qualify under that definition. U.S. government securities, repurchase agreements, and FCDAs with
original maturities of three months or less are treated as cash equivalents.

The ESF invests a portion of its FCDA Euro holdings through repurchase agreements in securities issued
by, and backed by the full faith and credit of, the governments of Belgium, France, Germany, Italy, the
Netherlands, and Spain. The amounts of these repurchase agreements included at year-end amounted to
$3.7 billion and $2.5 billion out of a total of $9.3 billion and $7.6 billion as of September 30, 2008 and
2007, respectively. These are considered to be FCDAs with original maturities generally of one week or
less, which are treated as cash equivalents, as discussed above.


                                                       19                                              (Continued)
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABLIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2008 and 2007




NOTE 2 – CASH AND CASH EQUIVALENTS (CONTINUED)

Cash and cash equivalent amounts held as of September 30, 2008 and 2007 are as follows:

 September 30 (In Thousands)                                          2008                       2007

 Cash and cash equivalents:

 Fund balance with Treasury                                       $          33,150       $                 -

 U. S. government securities                                           16,846,844                 16,436,114

 FCDAs:
    European euro                                                       6,148,351                  4,871,893
    Japanese yen                                                        3,108,742                  2,727,629
 Total FCDAs                                                            9,257,093                  7,599,522

 Total cash and cash equivalents                                  $    26,137,087           $     24,035,636

NOTE 3 – OTHER FCDAs

Other FCDAs include foreign currency holdings with maturities greater than three months as follows:

 September 30 (In Thousands)                                          2008                      2007

 At cost:
    European euro                                                 $   3,474,221         $       4,445,254

 At fair value:
   European euro                                                  $   3,498,166         $       4,477,010


NOTE 4 – SPECIAL DRAWING RIGHTS

The Special Drawing Rights (SDR) is an international reserve asset (capital held back from investment in
order to meet probable or possible demands) created by the International Monetary Fund (IMF). It was
created as a supplement to existing reserve assets, and on several occasions SDRs have been allocated by
the IMF to members participating in the IMF’s SDR Department. A reserve asset derives its value from
the commitments of participants to hold and accept SDRs and to honor various obligations connected
with its proper functioning as a reserve asset.




                                                 20                                             (Continued)
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABLIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2008 and 2007



NOTE 4 – SPECIAL DRAWING RIGHTS (CONTINUED)

The IMF calculates the value of the SDR using the market value, in terms of the U.S. dollar, of each of the
four freely usable weighted currencies, as defined by the IMF. These currencies are the U.S. dollar, the
European euro (components consist of the French and German weights), the Japanese yen, and the pound
sterling. The ESF’s SDR Allocations and Holdings (see below) are revalued monthly based on the SDR
valuation rate calculated by the IMF, and an unrealized gain or loss on revaluation is recognized. SDR
Holdings and SDR Allocations are reported as an asset and liability respectively in the financial statements
of the ESF.

SDR Allocations

Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated by the IMF to, or
otherwise acquired by the United States are resources of ESF. SDRs, once allocated, are permanent
resources unless:

        a.      They are canceled by an 85 percent majority decision of the total voting power of the
                Board of Governors of the IMF;

        b.      The SDR Department of the IMF is liquidated;

        c.      The IMF is liquidated; or

        d.      The United States chooses to withdraw from the IMF or terminate its participation in the
                SDR Department.

Except for the payment of interest and charges on SDR allocations to the United States, the payment of
the ESF’s liability related to the SDR allocations is conditional on events listed above, in which the
United States has a substantial or controlling voice. Allocations of SDRs were made on January 1, 1970,
1971, 1972, 1979, 1980, and 1981. Since 1981, the IMF has made no further allocations of SDRs. As of
September 30, 2008 and 2007, the value of SDR allocations was the equivalent of $7.6 billion for each
year.

SDR Holdings

SDR Holdings represent transactions resulting from the ESF’s SDR activities that are primarily the result of
IMF allocations. Other transactions reported in this account are recorded as they are incurred and include
any SDR acquisitions and sales, interest received on SDR Holdings, interest charges on SDR Allocations,
and other SDR related activities (see below), as well as valuation adjustments.




                                                   21                                          (Continued)
                                       DEPARTMENT OF THE TREASURY
                                       EXCHANGE STABLIZATION FUND
                                      NOTES TO FINANCIAL STATEMENTS
                                          September 30, 2008 and 2007



NOTE 4 – SPECIAL DRAWING RIGHTS (CONTINUED)

The following schedule reflects the actual activity related to SDR Holdings during fiscal years 2008 and
2007 in SDR and dollar equivalent.

 September 30 (SDR In Thousands)                                                        2008                         2007

 Beginning balance                                                                       5,974,721                     5,862,021
 Interest received on holdings                                                             199,394                       243,177
 Interest paid on allocations                                                            (162,789)                     (201,624)
 Remuneration                                                                               36,685                        71,385
 IMF annual assessment                                                                       (348)                         (238)
 Net gain on valuation of holdings                                                             -                               -

 Total SDR - Holdings                                                                    6,047,663                     5,974,721

 September 30 (Dollar Equivalent In Thousands)                                         2008                          2007

 Beginning balance                                                                 $     9,300,550             $        8,654,510
 Interest received on holdings*                                                            319,025                        366,490
 Interest paid on allocations*                                                           (260,448)                      (303,843)
 Remuneration                                                                               58,704                        107,183
 IMF annual assessment                                                                       (572)                          (357)
 Net gain on valuation of holdings                                                             282                        476,567

 Total Dollar Equivalent – Holdings                                                $     9,417,541             $        9,300,550

* Includes net valuation adjustments. Valuation adjustments applicable to interest received on holdings amounted to a net unrealized
gain of $548,000 and $2,188,000 respectively, for fiscal years 2008 and 2007. Valuation adjustments applicable to interest paid on
allocations amounted to a net unrealized loss of $455,000 and $1,800,000 respectively, for fiscal years 2008 and 2007.

Other SDR Activities

The U. S. Government receives remuneration in SDRs from the International Monetary Fund (IMF) on the
U.S. claim on the IMF, represented by the U.S. Reserve Position. The ESF is the only agency within
Treasury permitted to transact in SDRs. SDRs received become the resources of the ESF, as required under
22 USC 286o, and the ESF pays the dollar equivalent to the U. S. Government’s Treasury General Account
(TGA). The ESF's receipt of the SDRs and payment of the dollar equivalent to the TGA are not
simultaneous. Typically, the payment is several weeks after the receipt of SDRs from the IMF. Therefore,
the ESF must reimburse the TGA the interest it earned on those dollars during the period, which elapsed
between the receipt of the SDRs and the dollar payment to the TGA.




                                                              22                                                    (Continued)
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABLIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2008 and 2007



NOTE 4 – SPECIAL DRAWING RIGHTS (CONTINUED)

The ESF paid to the TGA $100,000 and $500,000 in fiscal years 2008 and 2007, respectively, in interest due
on the transferred dollars. The ESF did not sell or purchase SDRs from participating members during fiscal
year 2008 or 2007.

NOTE 5 – INVESTMENTS AND RELATED INTEREST

In accordance with SFAS No. 115, Accounting for Certain Investments in Debt and Equity Securities,
securities that the ESF has both the positive intent and ability to hold to maturity are classified as investment
securities held to maturity and carried at historical cost, adjusted for amortization of premiums and accretion
of discounts. Interest on investment securities, amortization of premiums, and accretion of discounts are
reported in interest on investment securities and are recognized on an accrual basis. The following schedule
reflects government investment securities at their amortized cost and by year of maturity as of
September 30, 2008 and 2007. There are no securities maturing after ten years.

 September 30 (In Thousands)                                                2008                    2007

 All Securities (at Amortized Cost)

 German bonds                                                          $     1,928,650          $     2,129,248
 French bonds                                                                1,182,557                1,134,770
 French notes                                                                1,395,099                1,125,937
 Japanese bonds                                                              5,911,199                5,528,502
 Total amortized cost                                                  $    10,417,505          $     9,918,457

 Maturing Within 1 Year

 Fair Value:
    German bonds                                                       $       367,931          $       306,155
    French bonds                                                               309,248                  395,687
    French notes                                                               193,602                  102,896
    Japanese bonds                                                           2,596,008                2,418,534
 Total fair value                                                      $     3,466,789          $     3,223,272

 Amortized cost:
   German bonds                                                        $       358,883         $        300,135
   French bonds                                                                296,349                  380,442
   French notes                                                                192,197                  102,761
   Japanese bonds                                                            2,589,426                2,414,804
 Total amortized cost                                                  $     3,436,855          $     3,198,142



                                                      23                                            (Continued)
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABLIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2008 and 2007




NOTE 5 – INVESTMENTS AND RELATED INTEREST (CONTINUED)

September 30 (In Thousands)                                    2008                2007

Unrealized net gain:
  German bonds                                             $       9,048   $            6,020
  French bonds                                                    12,899               15,245
  French notes                                                     1,405                  135
  Japanese bonds                                                   6,582                3,730
Total unrealized net gain as of September 30          $           29,934   $           25,130

Maturing after 1 Year through 5 Years

Fair value:
   German bonds                                           $    1,627,951       $    1,862,191
   French bonds                                                  916,115              772,112
   French notes                                                1,226,271            1,022,718
   Japanese bonds                                              3,338,856            3,119,780
Total fair value                                          $    7,109,193       $    6,776,801

Amortized cost:
  German bonds                                            $    1,569,767       $    1,829,113
  French bonds                                                   886,208              754,328
  French notes                                                 1,202,902            1,023,176
  Japanese bonds                                               3,321,773            3,113,698
Total amortized cost                                      $    6,980,650       $    6,720,315

Unrealized net gain/(loss):
  German bonds                                         $          58,184       $       33,078
  French bonds                                                    29,907               17,784
  French notes                                                    23,369                (458)
  Japanese bonds                                                  17,083                6,082
Total unrealized net gain as of September 30           $         128,543       $       56,486




                                               24                                  (Continued)
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABLIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2008 and 2007



NOTE 6 – CERTIFICATES ISSUED TO FEDERAL RESERVE BANKS

The Special Drawing Right Act of 1968 authorized the Secretary of the Treasury to issue certificates, not
to exceed the value of SDR holdings, to the Federal Reserve System in return for interest-free dollar
amounts equal to the face value of certificates issued (SDR monetization). The certificates may be issued
for the purpose of financing the acquisition of SDRs from other countries or to provide resources for
financing other operations of the ESF. Certificates issued are to be redeemed by the ESF at such times
and in such amounts as the Secretary of the Treasury may determine (SDR demonetization). There were
no SDR monetizations or demonetizations transacted during fiscal years 2008 and 2007. As of
September 30, 2008 and 2007, the amount of certificates issued to Federal Reserve Banks was $2.2
billion.

NOTE 7 – TEMPORARY GUARANTEE PROGRAM FOR MONEY MARKET FUNDS

The Treasury established a Temporary Guarantee Program for Money Market Funds (Treasury Guarantee
Program) in September 2008, which is managed under the purview of the Treasury Assistant Secretary for
Financial Institutions. Under the Treasury Guarantee Program, the Treasury guarantees that investors will
receive the stable share price (SSP) for each share held in a participating money market fund up to the
number of shares held as of the close of business as of September 19, 2008. Use of ESF’s assets to
support the Treasury Guarantee Program was approved by the President and the Secretary of the Treasury
on September 19, 2008 and the Treasury Guarantee Program opened for participation on September 29,
2008.

Eligible funds must be regulated under Rule 2a-7 of the Investment Company Act of 1940, such funds
must maintain a SSP, must have had a market-based net asset value (NAV) of at least 99.5 percent of the
SSP as of September 19, 2008, and must be publicly offered and registered with the Securities and
Exchange Commission. The initial Treasury Guarantee Program was in effect until December 18, 2008,
and on November 24, 2008, was extended until April 30, 2009 by the Secretary of the Treasury.

To participate in the initial Treasury Guarantee Program, eligible money market funds had to submit an
application and pay a premium of 1 basis point, based on the number of shares outstanding on September
19, 2008, if the fund’s NAV was greater than or equal to 99.75 percent of the SSP, or 1.5 basis points,
based on the number of shares outstanding on that date, if the SSP if the fund’s NAV was less than 99.75
percent of the SSP but greater than or equal to 99.50 percent of the SSP.

As of September 30, 2008, the ESF collected $39.7 million in program participation payments. As of
October 10, 2008, which corresponds to the initial Treasury Guarantee Program application deadline, the
ESF collected an additional $298.1 million in program participation payments. These receipts represent the
premium payment for the first three months of coverage which began September 19, 2008. All Treasury
Guarantee Program participation payments received are invested in U.S. government securities. Applications
representing at least $3 trillion of money market assets under management were received before the program
application deadline. Eligibility for inclusion in the Treasury Guarantee Program was determined for those
Funds that have a policy of maintaining a stable net asset value or share price that is greater than, or equal to
100.00 percent of SSP and had such policy on September 19, 2008. Funds with a net asset value below 99.50
percent of SSP as of the close of business on September 19, 2008 were not eligible to participate in the
program. Of the total $337.8 million collected through the Treasury Guarantee Program application deadline
date of October 10, 2008, $45.0 million was recognized as earned revenue as

                                                      25                                            (Continued)
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABLIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2008 and 2007



NOTE 7 – TEMPORARY GUARANTEE PROGRAM FOR MONEY MARKET FUNDS (CONTINUED)

of September 30, 2008, while $292.8 million was reported as deferred insurance premium.

NOTE 8 – COMMITMENTS AND CONTINGENCIES

A.       Foreign Currency Denominated Agreements

Foreign currency denominated agreements that exist between the Treasury and foreign entities or
governments provide for drawings of dollars by those entities or governments and/or drawings of foreign
currencies by the Treasury. The Treasury enters into these agreements through the ESF. Any balances the
ESF may hold under such agreements are held to maturity. The ESF is exposed to credit risk on foreign
currency denominated agreements in the event of default by counterparties to the extent of any amounts
that have been recorded in the statement of financial position. Market risk occurs as a result of
fluctuations in currency exchange rates. Under these agreements, the ESF receives an agreed-upon
amount in dollars upon maturity regardless of currency fluctuations. There were no foreign currency
denominated agreements in existence as of September 30, 2008 and 2007.

B.       Exchange Stabilization Agreement

The ESF has an Exchange Stabilization Agreement (ESA) with Mexico.

In April 1994, the Treasury signed the North American Framework Agreement, which includes the ESA
with Mexico. The ESA provides for a $3 billion standing swap line. The amounts and terms (including
the assured source of repayment) of any new borrowings under the North American Framework
Agreement are subject to certain requirements of the agreement that specify the transactions are exchange
rate neutral for the ESF and would bear interest at a then current rate referenced to U.S. Treasury bills.
There were no drawings outstanding on these agreements as of September 30, 2008 and 2007. On
December 10, 2008, the Treasury renewed its participation in the agreement until December 2010.

C.       Temporary Guarantee Program for Money Market Funds Liability

The ESF’s liability under the Treasury Guarantee Program is the difference between a SSP and the
amounts available to shareholders at liquidation of a participating Money Market Fund.

ESF management has assessed the likelihood of claims related to this contingency as well as any potential
resultant losses. This included gathering analytical data about the Money Market Fund industry and
specifically the history of funds for which NAV has dropped below the aforementioned thresholds. Based
on this assessment, management has determined that while any loss on claims could be significant,
currently such amount is not quantifiable and the likelihood of claims under the Treasury Guarantee
Program is deemed to be remote.




                                                  26                                          (Continued)
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABLIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2008 and 2007



NOTE 8 – COMMITMENTS AND CONTINGENCIES (CONTINUED)

The Treasury is not aware of any guarantee events which have occurred in those funds that have been
accepted into the Treasury Guarantee Program. Pursuant to SFAS No. 5, Accounting for Contingencies, no
accrual should be made. A guarantee event would require the ESF to make a payment under the Treasury
Guarantee Program.

NOTE 9 – SUBSEQUENT EVENTS

On November 19, 2008, the Treasury entered into a transaction with the Reserve Fund’s U.S.
Government Fund (USGF), under which the Treasury (i) executed the Guarantee Agreement which
accepted the USGF into the Treasury Guarantee Program (Note 7) and (ii) signed a Letter Agreement
with the USGF. The Letter Agreement addresses matters such as the USGF’s sale of its portfolio of
securities, the ESF’s purchase of remaining securities, liquidation and other matters arising out of the
USGF’s decision to suspend the redemption of the USGF’s shares and to liquidate the USGF. On
January 15, 2009, based on the terms of the Letter Agreement, the ESF purchased approximately $3.6
billion of Government Sponsored Enterprise (GSE) securities from the USGF; which amount is the
purchase price representing the amortized cost of the remaining securities, plus accrued but unpaid
interest. Upon consummation of the purchase, these GSE securities were classified as held to maturity and
will be reported as investment securities as of the date of purchase.




                                                  27
